No. 21-312

In the Supreme Court of the United States
VOLKSWAGEN AKTIENGESELLSCHAFT, ET AL.,
Petitioners,
v.
OHIO, EX REL. DAVE YOST,
ATTORNEY GENERAL,
Respondent.

CERTIFICATE OF COMPLIANCE
I, Nicole A. Saharsky, hereby certify that, according to the word-count tool in
Microsoft Word, the Brief for the Product Liability Advisory Council, Inc. and the
Motor & Equipment Manufacturers Association as Amici Curiae in Support of
Petitioners consists of 5,453 words, including footnotes and excluding the sections
enumerated by Rule 33.1(d). The Brief therefore complies with Rule 33.1(g).

Dated: September 30, 2021

Nicole A. Saharsky
Mayer Brown LLP
1999 K Street, N.W.
Washington, DC 20006-1101
(202) 263-3000
nsaharsky@mayerbrown.com

